No. 20-828
IN THE

Supreme Court of the United States
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
Petitioners,
v.
YASSIR FAZAGA, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Catherine M.A. Carroll, a
member of the bar of this Court, certify that the accompanying Brief of Respondents J.
Stephen Tidwell and Barbara Walls in support of Petition for a Writ of Certiorari
contains 2,112 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on January 19, 2021.

CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
catherine.carroll@wilmerhale.com

